<html>
<title> - CLEANING UP THE OCEANS: HOW TO REDUCE THE IMPACT OF MAN-MADE TRASH ON THE ENVIRONMENT, WILDLIFE, AND HUMAN HEALTH</title>
<body><pre>[Senate Hearing 115-385]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-385
 
 CLEANING UP THE OCEANS: HOW TO REDUCE THE IMPACT OF MAN-MADE TRASH ON 
              THE ENVIRONMENT, WILDLIFE, AND HUMAN HEALTH

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                        _______________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-933 PDF              WASHINGTON : 2019             
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 26, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Sullivan, Hon. Dan., U.S. Senator from the State of Alaska.......     5
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     6

                               WITNESSES

Baillie, Jonathan, Executive Vice President and Chief Scientist, 
  National Geographic Society....................................    10
    Prepared statement...........................................    12
    Responses to additional questions from:
        Senator Barrasso.........................................    25
        Senator Carper...........................................    26
    Response to an additional question from Senator Markey.......    28
    Response to an additional question from Senator Merkley......    28
    Response to an additional question from Senator Whitehouse...    29
Dooley, Hon. Cal, President and CEO, American Chemistry Council..    32
    Prepared statement...........................................    34
    Responses to additional questions from:
        Senator Barrasso.........................................    39
        Senator Carper...........................................    42
        Senator Whitehouse.......................................    43
Karas, Bruce, President of Environment and Sustainability, Coca-
  Cola North America.............................................    46
    Prepared statement...........................................    48
    Responses to additional questions from:
        Senator Barrasso.........................................    53
        Senator Carper...........................................    56
    Response to an additional question from Senator Markey.......    57
    Responses to additional questions from:
        Senator Merkley..........................................    57
        Senator Whitehouse.......................................    58
Law, Kara Lavender, Research Professor of Oceanography Sea 
  Education Association..........................................    61
    Prepared statement...........................................    63
    Responses to additional questions from:
        Senator Barrasso.........................................    76
        Senator Carper...........................................    78
    Response to an additional question from Senator Markey.......    79
    Responses to additional questions from:
        Senator Merkley..........................................    80
        Senator Whitehouse.......................................    81

                          ADDITIONAL MATERIAL

Article, David Nield: Plastic Pollution is Now Spreading from 
  Ocean Food Chains Into Land Animals, Thanks to this Insect,....   116
Statement, Jack Cooper: Animal Food Packaging Initiative.........   119
Statement, Chelsea M. Rochman: Department of Ecology and 
  Evolutionary Biology...........................................   122
Statement, Tommy Wells: Government of the District of Columbia...   125


 CLEANING UP THE OCEANS: HOW TO REDUCE THE IMPACT OF MAN-MADE TRASH ON 
              THE ENVIRONMENT, WILDLIFE, AND HUMAN HEALTH

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    CLEANING UP THE OCEANS: HOW TO REDUCE THE IMPACT OF MAN-
MADE TRASH ON THE ENVIRONMENT, WILDLIFE, AND HUMAN HEALTH
    Wednesday, September 26, 2018
    U.S. Senate
    Committee on Environment and Public Works
    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Boozman, 
Wicker, Fischer, Rounds, Ernst, Sullivan, Cardin, Whitehouse, 
Gillibrand, Booker, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I call this hearing to order.
    Today the Committee will examine the issues of man-made 
trash that is polluting the oceans, also known as marine 
debris.
    While marine debris can range from metals, glass, rubber, 
paper, and textiles, the vast majority of marine debris is 
plastic.
    Plastic plays an incredibly important role in our lives. As 
a doctor, I have seen firsthand how plastic can be 
indispensable in the field of medicine and healthcare. 
Similarly, plastic is crucial in virtually every aspect of 
modern society and economy, including the field of 
environmental protection. This doesn't mean, of course, that 
plastics should end up in our rivers, in our lakes, in our 
streams, and in our oceans.
    It is estimated that around 8 million metric tons of 
plastic waste ends up in the world's oceans each year. While 
some of this plastic is dumped directly into the ocean, like 
discarded fishing nets, most of the plastic flows from rivers.
    Experts believe that about 90 percent of all plastic 
pollution flows into the oceans from just ten rivers, eight of 
which are in Asia. It is estimated that Asia contributes to 
about 80 percent of all ocean plastic. Specifically, China, 
Indonesia, the Philippines, Thailand, and Vietnam are 
responsible for more plastic pollution than the rest of the 
world combined.
    By now, many Americans have heard of the Great Pacific 
Garbage Patch. This is an area in the Pacific Ocean where 
currents have concentrated plastic and other man-made trash. It 
now stands as the world's largest concentration of marine 
debris.
    Similar debris concentrations exist elsewhere throughout 
the world. In fact, plastic has been found in almost all 
corners of the ocean.
    Plastic takes at least 450 years to degrade completely; 
sometimes much longer than that. In the meantime, the debris 
will continue to entangle and kill marine wildlife, as well as 
threaten human health. If little is done to stem the 
accumulation of plastic in the ocean, experts believe that by 
2050 there will be more plastic in the ocean than fish, as 
measured by weight.
    Earlier this summer, National Geographic dedicated its June 
issue to this problem. It is a remarkable cover where it looks 
like it is an iceberg, but actually it is an upside-down 
plastic bag. And I don't know is responsible for this, but 
Senator Whitehouse and I both had this on our desks in our 
offices and pointed to this as he and I were talking about 
another issue.
    I think it is a remarkable effort by National Geographic to 
display in picture form something that we know is a major 
problem affecting----
    Senator Whitehouse.
    [Comment made off microphone.]
    [Laughter.]
    Senator Barrasso. I defer to my colleague from Rhode 
Island.
    Senator Whitehouse. Isn't this bipartisanship?
    [Laughter.]
    Senator Whitehouse. Here is a visual demonstration.
    Senator Barrasso. Well, it says, ``Some people see ocean 
plastic as a looming catastrophe worth mentioning in the same 
breath as climate change.'' I have it from the plastic 
standpoint. I am glad, Jonathan, that you, Dr. Baillie, 
National Geographic's Executive Vice President and Chief 
Scientist, are able to join us here today.
    Environmentalists aren't alone in recognizing this problem. 
Plastic manufacturers also acknowledge we need to address this 
problem.
    Earlier this summer, another one of our witnesses today, 
Cal Dooley, announced that he would extend his tenure atop the 
American Chemistry Council, as he said, to ``fight the spread 
of mismanaged plastic waste and help lay the foundation for a 
sustained global industry effort to address it.'' Thank you.
    Likewise, Coca-Cola, which is also represented here today 
and one of the world's biggest producers of plastic bottles, 
has taken steps to confront the problem. In January this year, 
Coca-Cola announced that it would ``help collect and recycle a 
bottle or can for every one it sells by 2030.''
    Today the Committee will want to hear what more can be and 
should be done. Specifically, we want to know what private 
industry, what local and State governments, what the Federal 
Government, and what international institutions should help do 
to address the crisis.
    I would like to point out that today's hearing follows one 
that Senator Sullivan held as Chairman of the Subcommittee on 
Fisheries, Water, and Wildlife in May 2016. It also follows the 
efforts, as well, as those of Senator Whitehouse to pass the 
Save Our Seas Act, which I understand is under consideration as 
we speak.
    I want to thank them for their leadership on this issue.
    I am going to give each of you an opportunity to say what 
you would like, a few words, about that after I turn to Ranking 
Member Carper. This issue is very important to the Ranking 
Member, to whom I now turn for his opening comments.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks so much, Mr. Chairman. Thank you 
very much for holding this hearing.
    I really want to say to Sheldon and to Dan, thank you for 
your wonderful leadership. Thank you for demonstrating how we 
can work across the aisle on really important issues. I think 
we are going to make some real progress, including today. So, 
thank you both.
    This is actually a timely issue for us in Delaware. Every 
year for 31 years we have done something called the Annual 
Delaware Coastal Cleanup. We start just north of Ocean City, 
Maryland all the way up to Pennsylvania, about 100 miles, and 
we pick up trash, all kinds of trash. This is a photograph that 
was taken at Fox Point State Park, not too far from actually 
Martha and I live in Wilmington.
    We had a lot of kids who showed up. There were scouts and 
there were people who were just there for a good time and, 
frankly, for a good cause, and we netted about four tons of 
trash going up and down the Delaware coast on Saturday.
    You might not believe the types of items we cleanup. No, 
you probably would believe it. From tennis balls, plastic water 
caps, lip balm containers, a metal baseball bat, and a whole 
lot more. Four tons is a massive amount of marine debris, and 
that is just from one cleanup weekend along Delaware's 100-mile 
coast.
    Those numbers pale in comparison to the amount of trash in 
our oceans. As the Chairman has already mentioned, the infamous 
Great Pacific Garbage Patch, the largest mass of marine debris 
floating in the ocean, is over 300 times the size of Delaware 
and nearly the size of Alaska.
    If you were able to lift Alaska up off the face of the 
earth and put one end of it on the U.S.-Canadian border, the 
other end would stretch all the way to Mexico. Imagine that. 
There is a massive marine debris floating in the ocean that is 
that big.
    As we all know, all this debris has serious impacts on our 
water quality, on our wildlife, on our food chain, and while 
the extent of its impacts are not fully known, we know that 
hundreds of species interact with plastics. Plastic consumption 
can harm wildlife and all states of life. Recent research 
suggests it can also decrease reproduction rates. We also know 
that tiny plastic particles called microplastics may be present 
in our drinking water and in the food that all of us consume.
    Cleanup efforts like the Delaware Coastal Cleanup provide 
hands-on opportunities for citizens of all ages to learn about 
this global problem and to contribute to the solution. Not just 
talk about it, not just worry about it, but to do something 
about it. However, most environmental experts agree that 
stopping debris from ending up in our waters in the first place 
is more of an urgent priority.
    We thank all of our witnesses for coming today. We are 
going to hear about potential solutions from our esteemed panel 
this morning.
    As Co-Chair and Co-Founder of the Bipartisan Senate 
Recycling Caucus, along with my Republican partner, Senator 
John Boozman, I want to mention recycling is one such solution.
    Delaware is a little State. It doesn't have a whole lot of 
space for landfills, so we had to get serious not too long ago 
about recycling. As Governor, I signed two executive orders to 
improve and promote recycling. The first established a 
citizens' workgroup on recycling to evaluate recycling in our 
State. The second established a goal of a 30 percent diversion 
rate for recyclables from Delaware's solid waste stream.
    Delaware's recycling activities continue to grow with the 
implementation of the universal recycling law in 2010, which 
eventually led to curbside recycling collection for all single-
family households and commercial businesses. These practices 
work for both our environment and for our economy.
    I am proud of our State's work, but while Delaware has made 
some strides, good strides, other States struggle. I will just 
say it is a mixed bag. I think we were late to the game. Other 
States were a little bit ahead of us. But we are making great 
strides now. Some other States and communities, frankly, aren't 
doing their share; they are not doing enough. Maybe we can 
inspire them.
    In many places it is cheaper to dispose of recyclable 
materials in landfills. These items can then make their way 
into our waters, unfortunately. This problem worsened when 
China announced earlier this year that it would no longer 
accept plastic waste from other countries to convert into new 
plastic-containing products.
    Why is that a big deal? Because China was previously taking 
30 percent of U.S. plastic waste for recycling. We, as a 
Nation, will need to invest in better waste management and 
recycling infrastructure to address challenges like this. We 
also need to find creative ways to finance these investments. 
Further, we may want to consider proposals to incentivize the 
use of recyclable plastics for manufacturing purposes.
    All that said, the Federal Government cannot undertake this 
effort alone. In the last several years, corporations and 
industry partners have stepped up and really led the way. Good 
for you.
    To our witnesses today testifying on behalf of these 
partners, we are truly grateful for your work and for the 
commitments that you have already made to recycling and help 
prevent debris from entering our oceans.
    Agreeing on solutions and figuring out how to implement 
them will not be easy, but I am encouraged by the strong 
bipartisan support and leadership of our two colleagues from 
Alaska and from Rhode Island. With their continued resolve and 
with the help of the rest of us, I believe we can put our heads 
together, put our hands together and make a real difference on 
this issue, and I look forward to doing so.
    Thank you one and all.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Sullivan, anything you would like to say?

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Thank you, Mr. Chairman and Ranking 
Member Carper, for holding this very important hearing today. 
This is important for the Country, for the world, for Rhode 
Island, for New Jersey. It is certainly important for my State, 
Alaska, which has more coastline than the rest of the lower 48 
States combined.
    The prevalence of marine debris on our shores is a chronic 
issue. As noted, this marine debris results from a number of 
man-made sources, including derelict fishing gear, poor solid 
waste management practices, major storm events, and everyday 
litter.
    But, as the Chairman mentioned, this is a preventable 
issue. Of the plastics that enter the oceans from land, more 
than half comes from just five developing countries. In Asia, 
ten river systems, eight in Asia and two in Africa, contribute 
almost 90 percent of land-based ocean plastics. To me, this 
presents a huge opportunity to curb this issue at its source 
globally.
    I want to emphasize what has already been stated, but for 
the media covering this hearing, hold your breath. This is a 
fiercely bipartisan issue.
    [Laughter.]
    Senator Sullivan. It does happen here. Matter of fact, it 
happens quite a lot. Senator Whitehouse, I am going to talk 
about all the great work he has done. Senator Booker also has 
been a huge champion of this.
    To just give you a little sense of the work that has been 
done, this past year, Senator Whitehouse and I have engaged 
early and often with the EPA, the Commerce Department, the U.S. 
Trade Representative's Office, the State Department, the 
American Delegation to the G7, other countries in the G7, 
countries in the G20; and what has resulted is a growing strong 
commitment to pursue marine debris prevention goals through 
future international trade agreements and development aid 
agreements.
    This is an important step forward, actionable step to 
impact curbing this man-made plight on our oceans that we all 
agree is a big problem.
    Last Congress, Senator Whitehouse and I, in this Committee, 
as Chair and Ranking Member of the Wildlife Subcommittee, held 
a hearing on the issue of marine debris. Much of which came out 
of that hearing is now in our Save Our Seas Act, the SOS Act, 
which I am happy to report we think is going to be hot-lined 
and passed today, we hope, in the Senate.
    It has already passed once. The House liked it so much they 
added a bunch of other elements to it, and we are going to try 
to repass it again here in the Senate today.
    This bill would serve to strengthen the Federal response 
capabilities to marine debris disasters, combat land-based 
marine debris resources, and encourage interagency coordination 
in stemming the tide of ocean plastics and, importantly, 
encourage the Trump Administration to pursue international 
agreements with regard to this challenge. And I think, talking 
to the senior members of the Administration, they are already 
there, so we are hopeful this is going to become law soon.
    Senator Whitehouse and I are also talking about an SOS 2.0 
bill, and I know Senator Booker is interested in that as well. 
It is my hope that this hearing will help provide ideas and 
momentum for the goals on what we think would be a good 
followup bill.
    Finally, again in the spirit of bipartisanship, last night 
I had the honor of presenting the International Conservation 
Caucus Foundation, the ICCF, Teddy Roosevelt International 
Conservation Award to Senator Whitehouse at an annual gala 
event. Although to make sure it stays a little partisan, I was 
glad to note that this was an award named after one of 
America's great Republican presidents.
    Thank you again, Mr. Chairman, for holding his hearing and 
giving me an opportunity to speak on this issue. We look 
forward to a very good, robust discussion today.
    Senator Barrasso. Thank you, Senator Sullivan.
    Congratulations, Senator Whitehouse. The floor is yours.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Barrasso. I will 
note that Senator Sullivan, my friend and colleague, was quite 
restrained last night in his comparisons of the relative size 
of his State and mine, which I thought was a kindness certainly 
appreciated by the Senator from Rhode Island.
    Let me first thank you, Chairman, for holding this hearing. 
You and the Ranking Member have been very great to work with. I 
appreciate your focus on this. It is, I think, a really 
productive opportunity for us and I am grateful to you.
    I want to also thank you and the former Chairman, Senator 
Inhofe, sitting beside you, because both of you have been able 
to overcome the disability of living in landlocked States in 
order to take a very positive interest in the marine debris 
problem.
    I want to particularly thank Senator Inhofe, who became an 
original co-sponsor of the SOS bill that Dan and I worked on. I 
appreciate his support and leadership for it. Senator Inhofe is 
a powerful legislator, and when he puts his shoulder behind 
something, it tends to happen, so I give him a lot of credit 
for his support for our Save Our Seas bill.
    Senator Sullivan has been an incredible partner in all of 
this, and I want to pay a lot of respect to him for his work. 
We wouldn't have even had the original hearing had Senator 
Sullivan not been able to successfully negotiate with the 
Commerce Committee, particularly the Fisheries Subcommittee of 
the Commerce Committee, to allow this to go forward, because 
there are turf issues involved.
    Fortunately, the chairman of the Fisheries Subcommittee of 
the Commerce Committee is also Dan Sullivan, so he was able to 
have that conversation with himself and reach an agreement to 
go forward in the Environment and Public Works Committee and 
have that hearing. It is from that hearing that the interest of 
Senator Inhofe and others was provoked, and from that hearing 
that the SOS bill went forward.
    We do expect that it will pass the Senate by unanimous 
consent again today, with some of the additions that our 
friends who see a bill moving want to take an opportunity to 
add things to. That has been what has slowed it down. It has 
not been a lack of enthusiasm for the underlying bill; it has 
been other people saying, wow, something good is happening, 
let's see if I can get my thing on it.
    So it has been a very, very positive experience and Dan's 
leadership has been phenomenal not only legislatively, but also 
with pushing really hard on the Administration to make this a 
policy priority in the Administration. He has been harassing 
the trade representative, the White House, the Department of 
Commerce. He has been very, very energized, and I appreciate 
that very much.
    I also want to express my appreciation to our former 
colleague in Congress, Cal Dooley, who is here for the American 
Chemistry Council, and I would like to put into the record the 
press release that the American Chemistry Council put out when 
it announced the extension of Mr. Dooley's tenure.
    The reason I want to put it into the record is that in one 
small page it has four separate mentions of how important the 
American Chemistry Council thinks solving the marine debris 
problem is and very strong personal statements of commitment 
and determination by Mr. Dooley, so I think that puts us in a 
very good opening position.
    Senator Barrasso. Without objection, submitted.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Whitehouse. We clearly need to do things to clean 
up our oceans and to clean up the rivers; there are a few of 
them that are flowing this into our oceans. We have a map here 
of some of the places around the world which are the top 10 
sources, as you will see. They focus on the Pacific, which is 
one of the reasons that Senator Sullivan has been so strong on 
this and Senator Murkowski has pledged to work on this through 
our Oceans Caucus as well.
    Senator Carper showed the beach cleanup in Delaware. We do 
beach cleanups in Rhode Island as well. We do our beach 
cleanups with trash bags. Senator Sullivan and Senator 
Murkowski have beach cleanups in Alaska where they have to use 
front-end loaders, dumpsters, barges because they are on a 
very, very burdened Pacific coast.
    So, it is a few countries and it is a few rivers that are 
the main sources, and we can do a lot to try to clean that up 
through trade policy treaties and simple public shaming and 
friendly persuasion.
    We also need to work, and this is where the American 
Chemistry Council will come in so strongly, on trying to find 
ways to actually have plastic biodegrade in the oceans. It 
breaks down into smaller and smaller bits, but it doesn't 
actually biodegrade into natural elements. It can do that often 
in a landfill because the composting heat will help it break 
down, but in the ocean that doesn't happen; and we need to do 
research in order to find products that will allow that to 
happen without undercutting the fundamental value of plastic, 
which is that it lasts a bit.
    We need to worry about entanglements and try to help our 
fishermen cleanup the oceans as they are out there. We see too 
much marine life dying from ghost fishing gear that still 
sweeps the ocean and kills, but with no gain to anyone because 
nobody ever recovers it.
    Finally, I think we need to understand the consequences for 
human health of plastic at the micro level beginning to get 
into the human diet in a way that the human species has never 
experienced before through our long history. We have eaten a 
lot of things through our long history, but it has all been 
stuff that fundamentally came back to certain natural elements. 
To have microscopic plastic now in our diet is something new 
that we need to undertake health research into.
    So, I appreciate this going forward and I thank very much 
my friend, Senator Sullivan, for what a superb leader and 
partner he has been on this, and I look forward to working with 
him productively on SOS 2.0, along with all who are present 
here today. Thank you.
    Senator Barrasso. Thank you very much, Senator Whitehouse, 
for your leadership.
    Thank you, Senator Sullivan.
    We now will hear from our witnesses. Today we are joined by 
four: Dr. Jonathan Baillie, Executive Vice President and Chief 
Scientist of the National Geographic Society; Hon. Cal Dooley, 
President and Chief Executive Officer of the American Chemistry 
Council; Mr. Bruce Karas, who is Vice President of Environment 
& Sustainability at Coca-Cola North America; and Dr. Kara 
Lavender Law, who is Research Professor of Oceanography at the 
Sea Education Association.
    I want to remind the witnesses your full written testimony 
will be made part of the official hearing record today. Please 
keep your statements to 5 minutes so we will have plenty of 
time for questions.
    I look forward to hearing the testimony and I would like to 
begin with Dr. Baillie.

  STATEMENT OF JONATHAN BAILLIE, EXECUTIVE VICE PRESIDENT AND 
          CHIEF SCIENTIST, NATIONAL GEOGRAPHIC SOCIETY

    Mr. Baillie. Good morning. Thank you, Chairman Barrasso, 
Ranking Member Carper, and the distinguished members of the 
Committee. I would like to thank you for holding this timely 
hearing on cleaning up the world's oceans. I would also like to 
congratulate Senator Whitehouse on his award last night. 
Congratulations.
    The Committee's leadership on this global crisis is 
critical, and I am grateful to have the opportunity to share my 
expertise as a representative of National Geographic.
    I am going to talk about the scale of the crisis; then I am 
going to discuss the implications for wildlife, for people, and 
for the economy; and then I am going to close discussing what 
National Geographic is doing and what we can do better as a 
Nation.
    The use of plastics is rapidly increasing throughout the 
world and is now a major threat to the environment, to marine 
species, human health, and the economy. As you can see on this 
map, over here and over here, the problem of plastics is 
global, is visible, and it is harmful. But it is also solvable.
    Today there are 9.2 billion tons of plastics in this world, 
and annually we are producing about 500 million tons of 
plastics, 40 percent of which is just used once and then 
discarded. There is estimated to be about 150 million tons of 
plastics just floating around our oceans and our marine 
environment, and no one knows really how long it takes for 
these plastics to biodegrade. Of course, it depends on the 
particular plastics, but estimates range between 450 years to 
never.
    This leaves our world with an ever-increasing amount of 
plastic waste. It is a problem we can no longer ignore.
    Research indicates that hundreds of marine species consume 
plastic or become entangled in it. The animals confuse plastic 
bags or small plastic fragments for food, and it is absolutely 
devastating to see a sea bird fly in and feed it chick plastic 
waste unknowingly.
    Species face entanglement in plastic packaging such as six-
pack rings, as well as ghost nets, fishing nets that have been 
cut loose or are simply lost.
    And we know that plastics have already entered the food 
chain. Microplastics have been found in 114 aquatic species, 
more than half of which we actually consume. Organic pollutions 
also fasten on to these plastic particles. And then there are 
nanoplastics.
    Now, this is concerning, as the full implications are 
unknown. We, however, do know that plastics are linked to 
everything from weight gain to brain development impairment in 
humans.
    Now, ocean plastic waste is also a threat to our economy. 
The ocean supports over 28 million American jobs. One in six 
U.S. jobs is marine-related. And coastal areas account for 85 
percent of the U.S. tourism revenue.
    I could give you many more statistics, but it is clear that 
unchecked plastic pollution poses a major threat to this 
important component of the U.S. economy.
    Now, National Geographic is stepping up. We are using our 
combined power of our cutting-edge science and exploration and 
our storytelling to draw attention to this critical issue and 
to help people understand all over the world what they can do.
    In May 2018, we launched Planet or Plastic?, which has 
already been referred to. This is a multiyear initiative that 
is focusing on the plastic crisis and how we can stop single-
use plastics entering the oceans. We also give out many awards 
to explorers around the world, many of which are working on 
this particular issue, explorers like Heather Koldewey, who is 
working in the Philippines to help remove these ghost nets from 
the oceans and have them turned into carpet tiles. It is 
innovations such as this that we find very encouraging.
    Can we please play the film?
    [Video played.]
    Mr. Baillie. That is just one of our amazing explorers. 
Heather said there is hope, but not without major change, and 
that change has to start right here, right now, in the United 
States.
    We are one of the most developed Nations in the world, and 
we have to ask ourselves why are we sending over half our 
plastic recyclables overseas instead of developing our own 
robust recycling capability? Why do we continue to use 
multilayer plastics like disposable coffee cups that can't be 
recycled? And why are we creating recycling standards that 
reduce confusion and address the fact that 91 percent of 
recyclable plastic is not being recycled?
    Now, while federalism and regulations make addressing this 
issue challenging, we must shift how our Nation manages plastic 
design and recapture, a task that only the U.S. Federal 
Government is able to take on. To support this, National 
Geographic would like to offer to convene a summit in 
Washington, DC. to bring together policymakers, to bring 
together industry leaders, and to bring together other 
stakeholders to have a critical discussion about how the U.S. 
can take a leadership position in this space.
    Now, imagine a future where we don't address this solvable 
issue. Imagine a future with billions of tons of plastics 
floating around the oceans, the impacts on species, the impacts 
on people and the economy. This is unthinkable. It is time for 
us to address this head-on. It is time for bold decisions and 
bold action. And it is time for the United States to take a 
leadership position to demonstrate best practice and to 
continue to drive innovation.
    Thank you.
    [The prepared statement of Mr. Baillie follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Barrasso. Thank you so much for your testimony and 
your leadership on this.
    Mr. Dooley.

   STATEMENT OF HON. CAL DOOLEY, PRESIDENT AND CEO, AMERICAN 
                       CHEMISTRY COUNCIL

    Mr. Dooley. Thank you, Mr. Chairman and members of the 
Committee. I am delighted to be joining you all.
    ACC represents a diverse set of companies engaged in the 
U.S. business of chemistry, and the chemical industry is at the 
forefront of developing the innovations, the technologies, and 
the products that are essential to advancing global 
environmental sustainability.
    If you look at the increased fuel efficiency in our 
vehicles, they are really a function of the plastics and the 
composites that are contributing their light-weighting.
    When we look at the enhanced energy efficiency of our built 
environment, our homes, our offices, and our factories, it is 
the products of chemistry that are increasing their energy 
efficiency and reducing greenhouse gas emissions. Even when we 
look at the plastic packaging that is reducing the weight of 
consumer products, that is reducing emissions.
    So, there is a lot of really positive contributions that 
the products of chemistry are making to enhance sustainability. 
Unfortunately, we have too many plastics that are entering into 
the environment where they clearly do not belong.
    As many of you already noted, the first step to ending 
plastic waste in the environment starts with understanding the 
sources. Twenty countries account for 83 percent of plastic 
waste entering into the ocean. The largest sources are rapidly 
developing economies, mainly in Asia, where basic plastic waste 
management infrastructure has not kept pace with the rise in 
demand for consumer goods.
    Studies by The World Bank and McKinsey have identified that 
the most cost-effective investments to reduce plastic waste in 
the environment are the implementation of waste collection 
infrastructure and improved processing of collected waste in 
source countries.
    ACC applauds the efforts of Senator Sullivan and Senator 
Whitehouse for leading efforts to secure the passage of the 
Save Our Seas Act. It is a good first step.
    But ACC and our value chain partners are excited about the 
opportunity to provide private sector support that would 
complement a bigger, bolder, and more effective Save Our Seas 
Act 2.0.
    There is a unique opportunity to build bipartisan 
congressional and Administration support for increasing the 
U.S. global leadership in advancing policies that will 
significantly reduce man-made waste from entering into the 
environment.
    We would encourage your consideration of policies that 
would include encouraging The World Bank and international 
development banks and USAID to prioritize waste collection and 
management. According to the International Solid Waste 
Association, waste management accounts for only .3 percent of 
development aid assistance.
    We also would encourage promotion of public-private 
partnerships and business-led efforts to fund waste management 
in the developing world. We encourage the Department of Defense 
and other agencies to fund waste management pilot projects at 
their facilities, particularly in the Asia Pacific region, to 
transform plastic waste into fuels, feedstocks, and 
infrastructure materials.
    In addition to policies designed to reduce waste in the 
developing world, there are domestic policies that can enhance 
waste management systems in the U.S. and also contribute to the 
development and implementation of new technologies that can 
capture the value in plastic waste. Plastic waste has more 
captured energy than coal, and many of ACC's companies are 
investing in developing technologies that can unlock the 
captured energy, transforming non-recycled plastics into 
alternative fuels and feedstock materials for new 
manufacturing. But current regulations do not specifically 
recognize these emerging technologies as recycling, which is an 
impediment to capturing the value of plastic waste.
    Some specific opportunities to address this issue include: 
providing guidance to States recognizing pyrolysis and 
gasification facilities which take waste plastics and convert 
them back to chemicals or fuels as manufacturing and not 
hazardous waste facilities; revise EPA's guidelines for the 
assessment of environmental performance standards and equal 
labels for Federal procurement to prefer products and services 
that utilize recovered plastics as recycled content; partner 
with the Department of Energy and Department of Transportation 
and other appropriate agencies to research opportunities that 
utilize plastic waste and innovative construction materials in 
transportation and water infrastructure projects nationwide; 
and, finally, designating fuel derived from plastic waste as a 
renewable fuel.
    We have a great opportunity to create a global public-
private initiative to eliminate man-made waste in the 
environment. ACC and our partners in the plastic value chain 
are committed to working with you and environmental 
organizations to identify the policies and the most cost-
effective investments of public and private resources that will 
eliminate man-made waste from entering into the environment.
    Thank you.
    [The prepared statement of Mr. Dooley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Barrasso. Thank you so much for your testimony, Mr. 
Dooley.
    Mr. Karas.

    STATEMENT OF BRUCE KARAS, PRESIDENT OF ENVIRONMENT AND 
            SUSTAINABILITY, COCA-COLA NORTH AMERICA

    Mr. Karas. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for the opportunity for 
inviting me before you to discuss the very issue of marine 
debris.
    Our world has a waste problem. According to the Ocean 
Conservancy, scientists estimate that more than 8 million 
metric tons of plastic is entering our ocean every year. From 
our perspective, it is unacceptable that packaging ends up in 
the wrong place, in our oceans and waterways or littering the 
communities where we work and live.
    As a total beverage company, we bring people drinks that 
make life's everyday moments more enjoying, create a shared 
opportunity for people and communities we call home. While 
growth is important, we cannot grow at any cost. We believe in 
doing business the right way, not just the easy way. For us, 
that means continuously working to reduce our environmental 
impact by collecting and recycling our packaging footprint, 
providing access to clean drinking water, supporting women's 
economic empowerment, and strengthening local communities.
    We are a global company operating in more than 200 
countries and territories, but through our bottling partners we 
also have deep, local connections and relationships that offer 
a unique ability to make a meaningful difference. The key areas 
where we strive to lead are clean, sustainable water for 
communities and women's economic empowerment.
    A third area we launched just this year is our new 
packaging vision, World Without Waste. The goal is to rethink 
how bottles and cans are designed and made, as well as how they 
are recycled and repurposed. The centerpiece is a bold, 
ambitious goal to help collect and recycle the equivalent of 
every bottle or can we sell globally by 2030. The Coca-Cola 
system intends to back World Without Waste with a multiyear 
investment that augments ongoing work to make our packaging 100 
percent recyclable by 2025.
    When it comes to PET, we believe that every package has 
value and a life beyond its initial use, and should be 
collected and recycled into either a new package or another 
beneficial use. We aim to be part of collaborative solutions 
that prevent waste from getting to the ocean in the first 
place.
    Regardless of where it comes from, we want our packages to 
have more than one life. To date, all 17 of our geographic 
business units have developed local plans to address our three 
strategic pillars: design, collect, and partner.
    Design means we aspire to create packaging that is at least 
50 percent recycled material by 2030; continue working to make 
all consumer packaging 100 percent recyclable by 2025.
    Collect means to collect and recycle the equivalent of 100 
percent of the primary packaging we sell by 2030. Partner means 
we will work together to support a healthy debris-free 
environment at both the land and the sea.
    In the context of design, our research and development team 
is working with chemical recycling technologies toward future 
piloting or partnerships. Additionally, our procurement team is 
working with our suppliers to advance progress on and increase 
availability of recycled PET, known as rPET.
    In Mexico, our bottled water brand seal is now available in 
100 percent rPET bottle as a result of strong collection and 
conversion infrastructure that our system has partnered in over 
the past decade. We are also looking at 100 percent rPET bottle 
in the Hong Kong market later this year. We will pilot the use 
of rPET in several other Asia Pacific markets in 2019. The 
increased use of rPET is crucial to accelerate a transition to 
a true circular economy for plastics.
    In the innovation space, we have expanded our package-less 
delivery model for beverages with both our freestyle 
touchscreen operated dispenser and our innovative Dasani pure 
fill.
    In the context of collect, marine plastic is driven in 
larger part by limited collection and waste management 
infrastructure in many emerging markets. That is why our second 
strategic pillar centers on improving packaging collection.
    We are working around the world to have an up-to-date 
understanding of collection recycling data and approaches. 
Where systems do not exist is where we are focusing. Cities 
with a very active informal sector, like unofficial, small-
scale businesses, have high rates of collection. There are 
correspondingly lower rates of collection for recycling in more 
developed cities where there is less incentive for small-scale 
collectors.
    We will use the data we collect to partner with government, 
industry, civil society, and local communities to tailor, co-
create, and roll out the type of collection recycling models 
that have been successful in developing markets in other parts 
of the world and scalable models that will improve collection 
rates.
    Last is partner. We recognize that although we are part of 
a problem, we cannot solve the packaging waste problem alone. 
It is for that reason we have established, joined, and expanded 
cross-sectoral partnerships around the world. We intend to do 
all of this not just in a cross-sector way, but in a scalable 
way that drives systemic change.
    We are working with groups from the international level to 
the very local level, from the Ocean Conservancy Trash for Seas 
Alliance, the Ellen MacArthur Foundation, to the Closed Loop 
Fund and local chambers of commerce.
    Thank you for your time. I look forward to answering your 
questions.
    [The prepared statement of Mr. Karas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Thank you very much, Mr. Karas.
    Dr. Law.

     STATEMENT OF KARA LAVENDER LAW, RESEARCH PROFESSOR OF 
            OCEANOGRAPHY, SEA EDUCATION ASSOCIATION

    Ms. Law. Good morning. Thank you, Chairman Barrasso, 
Ranking Member Carper, and members of the Committee for the 
invitation to testify at this important hearing on man-made 
debris in the marine environment. My name is Dr. Kara Lavender 
Law, and I am a Research Professor of Oceanography at Sea 
Education Association, or SEA.
    Since 1971, SEA has taken undergraduate students to sea on 
tall sailing ships to study the open ocean firsthand as 
navigators, sailors, shipmates, and scientists. More than 8,000 
SEA semester students, some of whom are in the room today, have 
contributed to our 30-plus year data set on floating plastics 
in the ocean, assembled by towing plankton nets from our 
sailing research ships twice a day, every day, and hand-
counting their contents.
    Trained in ocean physics, I first learned about ocean 
plastics in 2003, when I joined SEA, where the distribution of 
floating plastic debris was common knowledge based upon decades 
of student research. In contracts to misconceptions about 
immense floating islands of recognizable items of plastic 
trash, often referred to as garbage patches, SEA scientists 
knew that the most numerous type of plastic debris are 
microplastics, particles smaller than your pinky fingernail 
that are not readily visible even from the deck of a ship. I 
have a sample here.
    Since 2010, I have carried out scientific research on ocean 
plastics to better understand their sources, abundance, 
distribution, and transformation in the marine environment not 
only to advance scientific understanding, but also to inform 
solutions to this global problem.
    Of all the man-made debris in the marine environment, we 
focus on plastics because of their ubiquity, persistence, and 
the risks they pose to wildlife and, potentially, human health. 
To date, widespread encounters of more than 800 species of 
marine wildlife with plastic debris have been well documented, 
and scientific evidence clearly demonstrates physical harm that 
can lead to death of individuals from entanglement or ingestion 
of large debris.
    Laboratory studies have also provided evidence of harm from 
animal uptake of microplastics and their associated chemicals. 
However, because experiments are carefully controlled to test 
single outcomes, it is impossible to generalize results across 
species of debris types, or from the laboratory to populations 
in nature. Further research into the ecological impacts of 
contamination by microplastics is sorely needed.
    However, we must not wait for all scientific questions to 
be comprehensively and definitively answered before taking 
action to eliminate plastic debris from our oceans. In the 
short-term, the most important action is to stop uncontained 
plastic waste from entering the ocean from land.
    It is estimated that of the 5 to 13 million metric tons of 
plastic trash entering the ocean annually, nearly half 
originates from four countries in Southeast Asia, where 
inadequate infrastructure cannot keep pace with the rapidly 
increasing waste generation.
    However, here in the United States, the amount of plastic 
waste generated per capita outranks that in each of those four 
Southeast Asian countries, and the amount of plastic waste 
generated each day in the coastal United States is the highest 
of any country in the world.
    In the U.S. we are fortunate to also have a robust waste 
management system. But even the relatively small amount of 
waste that is accidentally lost or intentionally littered adds 
up to a large amount available to enter the ocean. Global 
investment in waste management, especially where no formal 
system currently exists, but even where it does, is the first 
line of defense in keeping trash out of the ocean.
    Cleaning up litter on land, especially in rivers and on 
coastlines, will continue to be an important ``last chance'' 
strategy to capture waste before it enters the ocean. Cleaning 
up debris in the sea itself is more challenging and resource-
intensive, but can be effective when targeting large items in 
nearshore areas or collecting floating trash before it can move 
offshore and break apart into millions of microplastics.
    Waste collection and cleanups are imperative in the short-
term, but long-term sustainable solutions to ocean plastics 
pollution must address the increasing amounts of plastics in 
use. We must act to eliminate unnecessary usage and waste; 
increase demand for recovering and recycling, perhaps through 
product design that ensures material value at the end of 
product life; and identify suitable material alternatives where 
possible.
    In summary, to reduce the impact of man-made trash on the 
oceans, wildlife, and human health, it is imperative that we 
prevent debris, especially that made of plastics, from entering 
the ocean. There is an immediate and critical need to assist 
countries that have inadequate waste management systems and 
there is much more to do in our own communities here in the 
U.S. as well.
    No matter where in the world we choose to work, a necessary 
first step is to clearly identify and measure the local sources 
of ocean debris, as well as the drivers behind each source, 
which could be a lack of infrastructure, a consequence of 
product design or use, or factors influencing human behavior. 
With this information in hand, we can best focus our time, 
attention, and resources to design appropriate interventions 
that will reduce input from each source. These actions should 
always be appropriate to place. There is no silver bullet or 
one-size-fits-all solution.
    Ocean plastics pollution is an environmental problem that 
is global in scope, in impact, and in responsibility. We all 
have a stake in a clean and healthy ocean. Whether in towns, 
cities, or States in the United States, or through 
international partnerships, we must work together toward short-
term and long-term solutions.
    Thank you for the opportunity to testify. I look forward to 
the day when our oceans are clean because of the work we have 
accomplished together.
    [The prepared statement of Ms. Law follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


    Senator Barrasso. Well, thank you all for your testimony. 
Very thoughtful, very insightful.
    We are going to start with some questioning. I am going to 
ask each of you, and maybe we want to start with Dr. Law and 
then work down the panel. You talked about training in ocean 
physics, undergraduate degree in math. Obviously, very 
thoughtful on these topics.
    There are a couple of articles that were in The Economist 
that ran 2 weeks ago on this specific topic, in the science and 
technology section. One was entitled ``On the Plastic 
Highway.'' Road makers are using waste to create harder wearing 
surfaces, the idea of using some of the recyclables not just 
for some of the things that you mentioned, Dr. Baillie, but 
actually for hardened surfaces on the roads.
    The second title, which made me think to start with you, 
was a teenager in California. This article is called ``Sweeping 
the Ocean: A Teenager's Plan to Troll for Plastic in the North 
Pacific Becomes Reality,'' and you are familiar with what he is 
doing out there.
    I would like each of you to describe what you think are 
some of the most promising areas of innovation that are taking 
place right now. And if it is OK, we can start with you, Dr. 
Law.
    Ms. Law. Sure. Thank you for the question. I actually think 
that some of the most promising innovations and interventions 
are actually quite simple. So, thinking about communities in 
the United States, in Portland, Maine, where I live, there has 
been an initiative to replace open garbage cans with lidded 
garbage cans. So, this is a way that we simply prevent waste 
from blowing out on a windy day.
    In Baltimore there is a river trash catching device called 
Mr. Trash Wheel that captures litter that is floating down the 
river before it can enter the ocean.
    These are relatively simple interventions. Mr. Trash Wheel 
runs on solar and hydropower, and actually has a great 
personality if you follow his Twitter feed. So, raising 
awareness, as well.
    Senator Barrasso. You are paying close attention to the 
personality.
    Senator Whitehouse. Mr. Trash Wheel. OK.
    Senator Barrasso. Let the record reflect.
    Ms. Law. So, I think these innovations are critical because 
those are acting to trap the trash before it enters the 
environment and ultimately the ocean.
    I think it is laudable that we are thinking big about 
trying to clean up the open ocean, but I have some concerns 
about trying to go out in the middle of the ocean to collect 
particles, most of which are as small as those found in this 
little vial. So, I do applaud all kinds of innovation and hope 
people will continue thinking big about how to solve this 
problem.
    Senator Barrasso. Mr. Karas?
    Mr. Karas. It is a great question. I think in the area of 
innovation, one of the things to consider is really thinking 
about innovation in process, how we do things. At least where 
we sit, as a company that makes beverages, it is very 
challenging for us to even get PET plastic back into our 
packages. So, we have partnered with groups like the Closed 
Loop Fund, which is focused on innovative solutions and they 
have done some great things in different geographies, basically 
applying technology to enhance the collection and recycling of 
materials.
    I think we have looked at things like the water wheel. We 
have looked at partnering with aquariums on different 
innovations like that. The key is how can you get close to the 
source of generation, and the innovation would be how do you 
recycle better.
    We can do carts in the street, and we work with the 
Recycling Partnership. We have a coastal communities grant that 
we had with the Recycling Partnership, exactly as you talked 
about in Portland. So, we are learning, as a company, what are 
some of those next steps that we can take that would be 
innovations that would improve collection, recycling.
    But I would say what we see where we sit today is the 
recycling infrastructure is very challenging for us to 
negotiate even in the U.S. It is a combination of privately 
owned companies, small municipalities, and each one is a little 
bit separated. What we would like to see longer term is really 
thinking through what is the waste infrastructure 2.0. What 
does it need to be to properly collect materials? And then you 
enable end markets to really function properly.
    Senator Barrasso. Mr. Dooley?
    Mr. Dooley. Thank you, Mr. Chairman. What I guess I would 
start off is that there is not one silver bullet that will 
solve this issue. But one of the things I think is very, very 
important is how do you establish policies that will result in 
adding value to the waste stream. And by that I mean how can 
you see an incentive for the investment in technologies that 
can ensure that waste plastic is more easily recyclable or the 
captured energy is more recoverable.
    How do you ensure, too, that there could be added value by 
finding new uses and applications of that plastic waste stream, 
as you mentioned, in terms of enhancing the infrastructure, the 
asphalt, and adding, even actually enhancing performance 
attributes there.
    That is where I think there are some simple things that 
Congress could do that would not treat the plastic waste and 
the recovery of it as a hazardous waste, because that is 
stemming the flow of investment dollars and the development of 
new technologies that could advance the value of that waste 
stream and recapture some of the value.
    A lot of our companies are making investments in pyrolysis. 
Actually, one company is about ready to launch, where they can 
take a mixed plastic waste stream that they can break down, run 
it through pyrolysis, basically, and break it down into a new 
feedstock that can be recycled into the plastic manufacturing 
and conversion stream.
    Senator Barrasso. I will get to you in a second, Mr. 
Baillie, to answer that same question.
    I think, Mr. Dooley, in your comments you earlier talked 
about a public-private partnership. There has to be a profit 
motive for this, and some of these new advances may lead right 
to that, it sounds like.
    Mr. Dooley. Absolutely. If you increase the value of it, 
you are going to have individuals be more willing to play a 
role in recovering, picking it up. You could have more 
incentives for the investment in water wheels in the developing 
world if there was a greater value to it. National Geographic 
is doing a lot of work looking at these scalable technologies 
as well, which we are very supportive of the work they are 
doing there.
    Senator Barrasso. Well, then, to National Geographic. Mr. 
Baillie.
    Mr. Baillie. Thank you. We have been thinking a lot about 
innovation and we have actually developed an impact investing 
fund with Sky. We have also developed a number of global 
challenges which we will be launching to promote innovation.
    In our community, we have some interesting projects which 
are being developed. The one I highlighted there with Heather 
Koldewey is very interesting, where you take nets from the 
ocean, which are basically floating around and capturing and 
killing a broad range of species. The local community benefits, 
but then we also get a recycled product in the end, so it is an 
interesting win-win-win scenario.
    We also have other explorers that are working on technology 
to take plastics locally and then convert that into building 
materials that people can actually use.
    In addition to that, we have another woman we are working 
with who is taking plastics that can't be recycled and looking 
at how that can be converted into fuel.
    So, there are lots of exciting things on the horizon, but I 
would agree with my colleagues that the greatest innovation is 
more about process and it is more about incentives. Here in 
Washington, DC, the five-cent charge on bags made a world of 
difference, so why don't we have that across the entire United 
States? Norway has 90 percent of its bottles being recycled 
with a simple incentive program around that.
    We are behind, actually, China and Europe in recycling, so 
let's look to the others. We are about 9 percent of our 
plastics being recycled. Let's look to the others and see these 
basic measures that we can put in place first, and then make 
sure that that innovation catches up with us as we move 
forward.
    Senator Barrasso. Thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, for holding 
this hearing.
    It is great to see all of you.
    I want to commend my colleagues, Senators Sullivan and 
Whitehouse, for the SOS Act. I heard you, Mr. Chairman, say we 
might pass that by unanimous consent today. I am proud to be a 
co-sponsor.
    Great to see Cal Dooley. We served together in the House.
    So, as I see it and listening to the testimony, we have to 
do a couple things. No. 1, we try and reduce upfront the amount 
of plastic packaging; No. 2, we need to significantly increase 
our recycling and improve our waste management, and not just 
here at home, but as has been discussed, you have major sources 
overseas.
    Dr. Law, thank you for giving a shout out to Mr. Trash 
Wheel. Baltimore is home to the National Aquarium, and the 
Aquarium works hard to try to educate people throughout the 
Country and around the world about the importance of protecting 
our environment and ocean environment.
    I should say that since we gave a shout out to Mr. Trash 
Wheel in the Baltimore Harbor, Canton, Maryland has Professor 
Trash Wheel. These are actually really important innovations to 
try and prevent trash that does get into our waterways and 
rivers from going out into the Chesapeake Bay and, of course, 
ultimately into the ocean. So, we want to prevent it from 
getting into rivers in the first place, but, when they get 
there, it is easier to catch it there than when it disburses.
    My question really relates to some of the testimony we have 
heard this morning on how plastics, as it breaks down, can get 
into the food chain.
    There was a story in Science Alert that just came out a few 
days ago, September 22d, saying that plastic pollution is now 
spreading from ocean food chains to land mammals via mosquitos. 
I don't know if you saw that article.
    Dr. Baillie, you say in your written testimony here, 
``Research has demonstrated that many of the fish and shellfish 
humans eat are consuming microplastics. It has also tied 
plastics to issues ranging from weight gain to brain 
development impairment.''
    So, if our two doctors here today could comment on the 
issue of plastics breaking down into microplastics and getting 
into the food chain, the animal food chain, and then what risk 
is there currently to the human food chain?
    Ms. Law. Thank you for the question. So, scientific studies 
have indeed found contamination by microplastics in a wide 
variety of species who have ingested them, and when you look at 
the size of these particles, you can see how we can be entering 
the bottom of the food chain.
    When we look at the percentage of individual animals that 
have microplastics when they are captured, the percentage may 
be around 20 or 30 percent, but this can add up if we eat a lot 
of seafood. Of course, it depends on the animal. We eat 
invertebrates whole, so if there is plastic in the 
invertebrate, we will be eating that. If it is a fish, likely, 
the plastics are in the gut, and we don't typically eat the 
guts of those animals.
    I think there is reason to be concerned, of course, because 
the amount of plastics that we are producing that are leaking 
into the ocean are going up over time, so the amounts we may 
ingest can go up over time as well. But there is so much 
remaining to be learned about what actually happens when an 
animal eats plastic or when a human eats plastic, including how 
long is it spending in the body. Are chemicals transferring 
from those particles to the organism? Do those chemicals 
bioaccumulate? And we simply don't have those answers yet.
    One thing to consider, there was one study looking at 
plastics ingestion in invertebrates, I believe, mussels or 
shellfish, and, as a side part of the study, they put out a 
Petri dish at a typical dinner table, and the number of plastic 
particles that landed in that Petri dish, sort of equivalent to 
on your dinner place, was much higher than what was in the 
seafood itself.
    So, I think we need to think beyond just seafood. Think 
about our drinking water, our bottled water, sea salt, all 
these other studies that are finding microplastics far beyond 
just the fish and shellfish.
    Mr. Baillie. I would agree with all of that. With the 
number of plastics increasing in the oceans, we are going to 
see more and more of this. There is plastics breaking down into 
their tiny fragments, but then there are nanoplastics as well; 
and the science is at a very early stage in terms of 
understanding the implications, but we do know with these 
plastics that the organic pollutants do bind with them in the 
ocean, which will probably make things even worse.
    But even if it turned out that there wasn't major 
implications for our health, which I don't think will be the 
case, I don't think future generations will be grateful for 
having plastics as a large part of their diet.
    Senator Van Hollen. I agree. I just wanted to get the most 
recent State of the science on this, as I said.
    Mr. Chairman, if I could ask unanimous consent to put in 
the record the article that appeared recently, because my 
understanding is, as you said, in fish, plastics seem to 
concentrate in the gut. But if you have mosquitos, then passing 
this on to land mammals, then there are questions about the 
food chain there. But there are all sorts of reasons to try and 
want to reduce this huge volume of trash. Obviously, this is 
one of them.
    Thank you.
    Senator Barrasso. Without objection, it is entered into the 
record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair. I appreciate the 
discussion today. I think a number of us are in and out, but it 
does tend to be a very bipartisan issue, so I want to thank you 
all very much for being here.
    Mr. Dooley, a lot of the testimony that we have heard today 
has been about how to better manage the plastic waste that ends 
up in our oceans. However, I also think it is important to 
touch on the work being done to make plastic more eco-friendly. 
I think a number of us have discussed this before.
    The Iowa Corn Promotion Board was one of the first groups 
to fund research on polylactic acid, PLA, which is compostable 
and made from corn; and PLA is the most widely used bioplastic 
and is used to make straws, cups, plates, cutlery, and other 
items. After composting, PLA doesn't contain any hazardous 
byproducts that we see from other plastics and doesn't release 
toxic chemicals into the environment.
    Though advancements will need to be made for PLA to become 
more widely used, do you see that PLA or other bio-based 
plastics could be part of the solution to the problem that we 
are facing right now?
    Mr. Dooley. Yes. Thank you. Like I said before, there is 
not going to be one silver bullet, and what you have identified 
is where there is going to be an opportunity, and our companies 
are investing a lot of money in research and development of 
some of the biodegradable plastic alternatives that are out 
there.
    We have to, though, be also concerned in terms of making 
sure that we do a comprehensive evaluation in terms of how that 
can be managed through the waste stream as well, because some 
of these compostable plastics can also contaminate the 
recycling, the more traditional and other plastic waste streams 
as well. So it has a role in the marketplace and it is where we 
see a lot of investment going into.
    There is also an increasing demand, as Bruce said in terms 
of Coca-Cola, with an increased demand that they are making a 
commitment to 50 percent recycled content. That, again, is 
going to add value to that plastic waste stream. The industry, 
the resin producers and the plastic producers, have to do a 
better job in investing the technology that facilitates the 
recovery of this material so that it can go more easily into 
that recycled content. So that is also going to be a component.
    But we have to be careful that we don't go down a path that 
goes all to biodegradable that then when a consumer or a 
homeowner mixes it into the recycling bin and then it creates 
another sorting opportunity and, if not sorted appropriately, 
then it contaminates the recycled material that some of the 
consumer product companies need.
    Senator Ernst. And we obviously know that there is a multi-
pronged approach to really wrangling with this issue, so 
certainly I think that composting type products should be part 
of that discussion.
    But then would you all agree maybe then that we need to be 
looking at additional research and development opportunities 
for all of these? I think opportunities really is there. With 
Iowa and the resources that we have, many of our other States 
as well, through the various commodities that we have, we can 
produce a number of those types of materials, and that might be 
one part of the solution, and I do hope that we will take an 
opportunity to look at that.
    Any other comments on those biodegradables?
    Mr. Baillie. I would just add, and maybe to build on what 
Cal had mentioned, is I think as we design things for use and 
they are plastic, you have to design with the end in mind. I 
think one of the reasons why we are where we are today is many 
plastics are designed to--a bag is designed to carry materials, 
but the thought isn't given to the end market, and I think that 
is a key piece of development in the process, is understanding 
what we are building and does it actually have value later.
    If it has value, it is going to come back and create that 
circular economy that we want. But if it is very difficult to 
recycle, we don't have technologies, as Cal mentioned, to 
actually solve for, then that is when we run into problems. So 
really focusing on making sure we design with the end use in 
mind when we make things.
    Senator Ernest. Absolutely. I think that is very smart. So 
looking at, perhaps, straws, there is the big debate about 
plastic straws right now, how many plastic straws are actually 
recycled. I don't know that many of those are, so that could be 
a potential stream or opportunity for something that is 
biodegradable and something that would be composted in a 
landfill, perhaps. So I think that is a very smart approach, is 
understanding what is recoverable later on and what is actually 
put into our landfill system.
    Did you have a comment as well, Dr. Lavender Law?
    Ms. Law. Yes. Thank you for bringing up straws, because I 
think that is a really good example of if we don't need a 
straw, not creating the waste in the first place is actually a 
higher level strategy so that we don't even have to worry about 
managing it.
    But from the perspective of the oceans, I just wanted to 
comment on the biodegradable plastics as well. Specifically, 
the PLA is designed to biodegrade in an industrial composting 
facility.
    Senator Ernst. Composting, correct.
    Ms. Law. So, if you are in a municipality that doesn't have 
access to one of those facilities, your PLA is trash, and the 
ocean doesn't really care if it is PLA or polyethylene or 
polypropylene. So that is something just to keep in mind when 
we talk. We talk broadly about these materials, but really we 
need to think carefully about which specific material we are 
talking about.
    Senator Ernst. Right. Exactly. I will make another plug for 
it, though. With the PLAs, we still do have to look at other 
research and development, and understanding where perhaps this 
particular stream of PLA may not be appropriate for oceans, but 
certainly if there is additional research that can be done that 
does support another biodegradable product that is ocean-
friendly, we certainly should be looking at all those 
opportunities.
    So, thank you. Oh, excuse me, yes, Dr. Baillie.
    Mr. Baillie. Just on the straws, Americans are using 500 
million straws every day, and there are alternatives. You can 
use a straw like this and keep it with you at all times. But 
with a lot of these plastic items that we simply don't need, 
there is an opportunity to take leadership and just say we are 
going to ban certain items. You have the French, which have 
made a commitment to banning plastic cups and plates by 2020. 
You have many countries that have banned the use of plastic 
bags. We have about a trillion plastic bags per year being 
produced. While I gave my testimony, I think about 10 million 
plastic bags were used, with an average lifespan of about 15 
minutes.
    So, there are many kinds of interventions that we can make 
immediately if we are truly serious about addressing the small 
waste issues like straws.
    Senator Ernst. Well, I appreciate it.
    Thank you very much, Mr. Chair.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and thank you 
again to you for this hearing and to the witnesses for 
appearing here.
    In my opening comments I mentioned a couple of topic areas. 
One is cleaning up in the oceans, and particularly cleaning up 
in the rivers that feed the oceans, where much of this plastic 
comes downriver; trying to find ways to pick the plastic out of 
the flow points before it hits the ocean. Once it is out there 
floating around in the great Pacific Garbage Patch, it is 
really hard, really inefficient, really expensive to deal with 
it. To try to get it upstream is more significant.
    I think to prevent that we need to have a strong focus on 
requiring countries with whom we have trade relationships to 
meet elementary standards of upland waste disposal 
responsibility. We have never been very good at enforcing 
pollution control standards overseas as a part of trying to 
balance our trade, so there has been a lot of cheating, where 
an American company has to keep its junk out of the river and 
the competitor doesn't, so the price of the competitor's 
product can go down, but we all pay the price when it ends up 
in the ocean.
    And I think there are technical ways to go about doing 
that. Even in Newport Harbor we have a little basically a sunk 
dumpster with a solar pump that keeps pumping the water out so 
that there is constant inflow and there is enough inflow the 
plastic flows in, it gets trapped in the dumpster and you can 
clear it out.
    Rivers have similar catchment technologies. But until there 
is a revenue basis for doing that, it is hard to get it done, 
so that is something I think that we can work on.
    Biodegradability we have talked about, so I don't need to 
add to that.
    Again, on entanglement, if a fisherman loses a long-line 
rig, for instance, first of all, it may be hard to find, but it 
is not really hard to put pingers on things these days. 
Supporting people in trying to make fishing gear more traceable 
once it is lost could be a good strategy. Having a bounty so 
that if you are out fishing and you come across somebody's 
gear, you take the trouble to bring it in and bring it home and 
take it out of the ocean.
    Fisherman work incredibly hard and it is a very uncertain 
world out there. It is even more uncertain with oceans warming 
and populations of fish moving around, so to expect fishermen 
to stop what they are doing and become the people who are 
responsible for cleaning the oceans themselves I don't think is 
really fair unless all of us have found a way to help make that 
a productive use of their time.
    And then I think the human health research is the other 
point. We really, I think, need to know pretty quickly what 
risks this poses so we can know with what degree of urgency and 
alacrity we need to take on the problem.
    So, I would just like to ask each of you to comment on 
those four topic areas for our 2.0, and if there is anything 
further you think I have completely missed, please throw it in.
    We will start with Dr. Baillie. This will be my only 
question, so if we could just run it out, that would be fine.
    Mr. Baillie. Sure. So, on the initial map that I showed, it 
showed the major river systems where plastic pollutants are 
getting into the oceans and, of course, you commented on the 
top 20 being in Asia and being a significant problem.
    At National Geographic we are committed to doing an 
exploration looking at some of the major rivers around the 
world and understanding where the plastics are actually coming 
from and looking at the social issues and the political issues, 
but also looking at innovation that we can help promote so that 
that process can be addressed.
    When it comes to fishing gear, you saw the short video in 
terms of using the nets. It would be wonderful if we could look 
at creating more of a market for those nets, as many of them 
are made of nylon, which is actually quite a valuable material 
that can be reused for things like the carpet tile right here. 
So, I think it is about exploring some of those innovative 
approaches, but also putting more pressure on the fishermen to 
actually keep track of those nets when they are out there.
    I very much like your idea of the tracking device. Again, 
at National Geographic, we are developing a whole bunch of 
sensor systems, so this is just the type of thing we could 
explore, sensors to try and keep greater tracking.
    Mr. Dooley. Thank you. You know, I think that what we are 
interested in and we are trying again to really establish a 
private sector initiative that would represent constituents 
throughout the value chain. Part of our interest is how do we 
do a better job of identifying those initiatives and those 
investments that are going to be the most cost-effective in 
making a meaningful impact on reducing plastic waste in the 
environment.
    We think the public agencies, the U.S. Government, has an 
opportunity to help and facilitate that as well.
    I think when we look at, again, the Asia region, which is 
the primary source for certainly the Pacific driver, we have 
the opportunity to focus on cities. Ocean Conservancy has just 
launched an initiative called Cities, and cities on rivers, 
because, as you said, the rivers are the source that enters 
into the ocean. If we focus on developing a comprehensive waste 
management assistance program for cities on rivers in the Asia 
region, I think you would be able to see significant private 
sector resources that would complement public sector 
investments as well.
    You can even get that a little more granular because you 
also, in order to have a sustainable waste management system, 
you have to add more value to that waste stream; and that is 
where I think the U.S. Government also has an opportunity to 
make investments in pilot programs in that region. We have a 
number of military bases there that could make an investment in 
a pilot program that could be able to demonstrate and capture 
the value in the waste stream not only from their own 
operations, but perhaps even extend it to the communities.
    You can even see it with fishing nets. If you had a 
pyrolysis unit that could develop syn fuel or diesel fuel from 
a plastic waste stream, as well as fishing nets, it could be a 
source of income for the local community that was playing a 
major role in trying to be a collection center or providing the 
collection of unused fishing nets.
    So we think that there is just a wonderful opportunity for 
the U.S. to show leadership that would complement and encourage 
private sector involvement in meaningful initiatives that 
really focus on making waste management more effective.
    Senator Whitehouse. My time has long expired, so I should 
probably invite the other two witnesses to make their responses 
for the record, if you would do that.
    It is up to the discretion of the Chair, but I think we 
probably need to be thinking about bounties, as well, because I 
doubt there is enough of a resource there to make it self-
sustaining without some help.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Whitehouse, you opened your great comments about 
the fact that we don't have the control over some of the 
foreign countries that we would otherwise have. I want to give 
another side to that because in some of these countries they 
actually have ideas that we haven't gotten. One of my close 
friends on the continent of Africa is Paul Kagame, who is head 
of Rwanda. He made a decision to really cleanup his country. 
And I have to tell you guys that of all 54 countries, and I 
have been to all of them, in Africa, you go in there, that is 
the clean, pristine country, Rwanda.
    Don't get me wrong on this, I am not suggesting this, Mr. 
Karas, but the first thing he did was outlaw plastic bags. Then 
he went on. Now when you go from the airport to the 
headquarters, you just see a pristine country. I think we ought 
to really sit down and look and see some of the things that he 
has done successfully and emulate those.
    I am kind of surprised not many people talked about the 
meeting that took place just last week. Maybe it is because it 
is so soon afterwards, but it was in Nova Scotia, where the G7 
people, and our participant there, of course, was Andrew 
Wheeler, who worked for me for 14 years, who was very active on 
this Committee. He attended that. It was a meeting where they 
discussed the very thing that we are discussing here.
    The objective, and I am going to read this and then I am 
going to be asking to put the outline in the record, is to 
``incentive the development of innovative social and 
technological solutions for a more sustainable management of 
plastics throughout their life cycle in order to increase 
resource efficiency and to reduce marine plastic pollution, 
including by finding innovative ways to enhance waste 
management of plastics that may become marine litter.''
    They have excellent suggestions, and I ask, at this point 
in the record, you include this. With no objection. Thank you.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Inhofe. I would ask you, Mr. Dooley, I think you 
are familiar with this. Nothing much has been said about this, 
but I would like to know what thoughts you have about the 
recommendations that have come from the G7 talks that took 
place. Actually, that meeting took place in Nova Scotia right 
up until last Saturday, I think they concluded it, so your 
thoughts about what has happened there and how that coordinates 
with the recommendations that we are making with this excellent 
panel that we have.
    Mr. Dooley. Well, ACC was very pleased that Administrator 
Wheeler attended that meeting and also committed, along with 
the balance of the environmental ministers there, to really 
support moving forward on how could they collectively create 
greater incentives for the development of innovations that 
would contribute to the elimination of plastic waste.
    It really was building upon one of the commitments that 
Trudeau made at the G7 principals meeting, where he committed 
to doing $100 million innovation grant that was really trying 
to provide public sector investment that would be matched 
oftentimes by private sector commitments that was focused on 
trying to eliminate plastic waste in the environment. That was 
further developed under the challenge program that was talked 
about at the Halifax meeting of the G7.
    We think those are opportunities to really leverage the 
private sector funding and to ensure, again, that we have a 
collaborative effort to identify what are going to be the most 
cost-effective investments of both taxpayers' dollars, as well 
as private sector funds. We are very supportive.
    Senator Inhofe. That is good. I think we need to become 
more familiar with that. A lot of heavyweights were involved in 
those decisions and that discussion in Nova Scotia.
    Mr. Karas, I think we may share one philosophy that I kind 
of picked out of your opening statement, and that is it has 
been my experience over the years--and I have been on this 
Committee since, I don't know, a lot of years--that some of the 
solutions to problems are best handled by the private sector.
    I can remember when we had a lot of the Superfund problems. 
I was actually chairing this Committee at that time. What 
happened, and I won't mention the oil company, it was an oil 
company, though, that was working at that time in Louisiana, 
and they did have a spill, and it was a pretty serious one. So 
they went in and evaluated what it would take to clean that up 
and what it would cost to clean that up.
    I am going from memory now, but I think it was something 
like it would take 13 months if this oil company were allowed 
to do it at the cost of $7 million. EPA rejected it at that 
time. We were kicking and screaming about that, but they did. 
They took this on and it ended up taking not 13 months, but 4 
years; and not $7 million, but $15 million.
    I guess what I would ask you, your thoughts on the things 
that can be done through private sectors that cannot be done 
through the public and what your experience has been.
    Mr. Karas. Thank you, Senator. I think the way I would 
answer that question would be in really looking at this space. 
We are good at making beverages and marketing beverages and 
selling; that is our core business, we make beverages. And what 
we find when we get into a space like waste is we have to rely, 
in my comments I talked about the critical importance of 
partnerships, we have to rely on others.
    What we have learned in the course of we had a water 
stewardship goal to replenish the volume of water that we put 
in our products by 2020. We met that early. We met that because 
one of the reasons was public-private partnerships. We have a 
public-private partnership with USDA, U.S. Forest Service. For 
us, it gives us resources that we thought we would never have, 
knowledge and information that we wouldn't have access to, and, 
really, we learned a lot and advanced quickly.
    So I think our learning in these spaces has been it is 
absolutely mandatory for us to really reach out and engage with 
trade groups like ACC, with technical people that are 
knowledgeable, to really come to a great solution collectively. 
I think that is what ultimately wins the day.
    Even when we do partnerships through our foundation, we 
have something called a Golden Triangle partnership, and what 
we learned when we link business, civil society, and the 
government together to look at a problem, we usually get to a 
really good place, a place that we wouldn't have gotten to by 
ourselves.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Carper.
    Senator Carper. I am told by my colleagues and our staff 
that you all are doing a good job. As you know, we serve on a 
bunch of different committees and, unfortunately, all my 
committees are meeting right now, so I am trying to be three or 
four places at once. I am not doing really well at it, but now 
I am with you and look forward to asking a couple questions.
    First, I want to ask unanimous consent, Mr. Chairman, to 
enter a letter from MERR and supplemental materials be entered 
into the record from the Marine Education, Research & 
Rehabilitation Institute in Delaware, as well as some other 
supplemental materials.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Carper. Thanks very much.
    Dr. Law, if I could just aim my first question at you. I am 
told by my staff that you spent a lot of time at sea. They said 
more than probably anybody in the room. I was in the Navy for 
23 years, mostly in airplanes; some time on seas, but I would 
be happy to give that honor to you today.
    They tell me you spend a lot of time at sea observing 
firsthand the impact of marine debris on the environment, but 
also especially on wildlife. Do you want to share with us some 
specific examples of some things you have seen with respect to 
marine debris' harm to wildlife, including marine mammals, sea 
turtles and birds?
    In addition to minimizing the amount of debris that ends up 
in our oceans, what else should we be doing to mitigate these 
impacts?
    First some examples.
    Ms. Law. Sorry.
    Senator Carper. First some examples.
    Ms. Law. Some examples, yes.
    Senator Carper. And then some ideas on what we ought to be 
doing to mitigate these impacts.
    Ms. Law. Sure. So, most of my sailing experience has been 
in the open ocean, much of it in what are called the 
subtropical gyres, which are areas of the ``garbage patches.'' 
These are areas of the ocean that are actually quite nutrient 
poor and not----
    Senator Carper. Most people probably try to avoid those.
    Ms. Law. Sorry?
    Senator Carper. Most people try to avoid those.
    Ms. Law. Most people try to avoid those, that is right; 
there are not a lot of wind. They are not places many people 
spend a lot of time, but we do spend time doing our science 
there.
    I think the most important observation I have had is that 
many of the descriptions we hear about this problem are not 
what you observe out at sea on the boat. I don't see very large 
objects going by, but when you do it is very surprising to see 
a shoe or a bucket or a teapot or a toothbrush drifting by 
thousands of miles from land.
    When you look over the side, you see these little bits of 
plastic. And in terms of interaction with wildlife, what I have 
observe personally is sea birds who are feeding at the sea 
surface where these little bits of plastic are floating. So 
while you can't actually see it hanging out of their mouths, 
you know that the birds are eating these plastics.
    Similarly, we have captured in our nets, at one point we 
captured a five-gallon bucket that did have a fish swimming 
under it. That fish, we brought aboard and it had 42 pieces of 
microplastic in its gut. We also tow a fishing line. We brought 
a mahi-mahi onboard and it had a piece of plastic----
    Senator Carper. Was the fish dead or alive?
    Ms. Law. Just a line with a hook.
    Senator Carper. OK.
    Ms. Law. We brought a mahi-mahi on board for dinner and it 
had a piece of plastic this big in its stomach. So we were 
faced right then, do we want to eat this fish or not? We did. 
It was delicious.
    Senator Carper. Did you? OK.
    Ms. Law. But I have not seen marine mammals entangled 
myself, so I don't have that personal experience.
    I really think I come back to we have to keep this out of 
the ocean to solve it. The rescue efforts, when people spend 
lots of time and resources to help these animals when they are 
entangled are critical, and when we have access that is very 
important, but we just have to stop it from entering.
    Senator Carper. All right.
    I like to focus on root causes. I just came from a Homeland 
Security business meeting; we are marking up about 20 different 
bills. One of the things we focus on in Homeland Security is 
border security, including border security with the border with 
Mexico. We spend a lot of time, effort, and energy trying to 
keep people from getting into our country from places like 
Honduras, Guatemala, El Salvador. The root cause of all that, 
though, is the lives that they live in those three countries 
are miserable; and we are complicit in their misery given our 
dependency and addition to all kinds of drugs, narcotics.
    But part of the root cause in solving that problem, all 
these people trying to get into our Country from our southern 
borders, is to help make sure that their lives are less 
miserable in those three countries; they have some hope of 
opportunity. That is the root cause.
    Is there a root cause in this case? Is there a similar root 
cause we ought to be focused on, rather than just focusing on 
the symptoms of the problem? I have a great photograph of Coast 
Day in Delaware this last weekend, but we are addressing the 
symptoms of problems. There is always trash that washes up on 
the east coast, including in Delaware, so we focus on the 
symptom of the problem.
    If we looked for the root cause, where should we be 
looking? Because we are really good at spending a lot of time 
and energy and resources on symptoms of problems, not always on 
the root cause.
    Mr. Dooley. Senator, the way that I would respond to that, 
if you look at where the major source of the problem, it is in 
the developing economies; and in those developing economies 
they have a host of public needs. Some of it is nutrition, some 
of it is education, some of it is healthcare, and some of it 
also is waste management systems. When they prioritize them, 
oftentimes the waste management investments come down very low 
on the list, and that is why, oftentimes, they lag behind in 
developing the waste management systems. As their economy 
develops, it becomes the source of a lot of the waste plastic 
and other waste that is getting into the environment.
    That is where I think we have an opportunity in the 
industrialized world in the private sector to allocate 
resources to help prioritize waste management, and part of that 
help in prioritizing investments in waste management is 
providing public and private sector support. We think if you do 
that in the developing world, we can make a tangible difference 
in reducing the amount of plastic waste in the environment.
    Senator Carper. Good. Thank you.
    Mr. Karas, please.
    Mr. Karas. Just an add-in. I think we maybe touched on it 
around the fringes in the conversation here, but infrastructure 
is absolutely important. But the layer over that, and we have 
learned this as we have done projects, it is the level of I 
guess you would call public education and awareness. How do 
people value that material? Obviously, if it is all in the 
ocean, it is a throwaway, and we are not thinking about it. 
Even in the developed world it takes time to change sort of the 
hearts and minds, and that has to accompany all the work that 
we are doing. So, it maybe starts with PSAs, but maybe 
ingraining into younger generations what should you do with 
materials when they are in your hand.
    I would suspect that if you asked most of the public about 
recycling, recycling is the act of putting something in a 
specific container, and not thinking about the circular economy 
and where it needs to go in the long-run. So, I think some of 
that cultural piece is important to mix in with that.
    Senator Carper. All right, thanks.
    Senator Barrasso. Senator Whitehouse, now that Senator 
Inhofe has completed, did you want to get a continuation of the 
line of questioning?
    Senator Whitehouse. Sure, if Mr. Karas and Dr. Law. I don't 
know if you recall the question; it had to do with the various 
recommendations about trying to stem the flow into the seas, 
particularly in the big rivers; about trying to invest in 
biodegradability; about trying to make it a better revenue 
proposition for fishermen to keep and recover lost fishing 
gear; and the last one was research on the human health effects 
of ingesting microplastics. Are those areas we should be 
working on and are there other areas you would recommend? That 
was the question.
    Mr. Karas. Senator, I think those are all good areas that 
you highlighted there. I think what we have learned in the Asia 
Pacific region as our business units work is we are having to 
form some of these cooperative partnerships. We are doing it in 
Indonesia and the Philippines, starting some of that in Vietnam 
to really start to look at where do you start. I think that is 
sometimes the challenge. Here we can look at our infrastructure 
that exists. Maybe it is not well connected, but it is like 
where do you start, what is ground zero, and we have to do that 
collaboratively.
    So, what we are seeing is brands are engaging with 
different NGO's and governments to say, OK, how do we move the 
needle in that. I think those will help in the long-run, but it 
takes time to build those out.
    Senator Whitehouse. And in this case it takes incentives.
    Mr. Karas. Correct. Correct. But I would add that in terms 
of incentives, and maybe it is something that Cal has already 
touched upon, I think we have to really think closely about the 
end markets and the value of the materials.
    What often is lacking, you could sort out polypropylene, 
but there may not be a market there; and if that doesn't 
happen, if the economics aren't there, it just isn't going to 
work. But if we can work to build the proper end markets, it 
really starts to close the loop. To me, when a business has an 
incentive to get that material and put it into something else, 
that is going to be a powerful driver in that space.
    Senator Whitehouse. You will agree that there is a 
discrepancy between the recovered value of waste plastic and 
the value to humanity of not having an ocean in which there is 
more plastic than fish.
    Mr. Karas. I would agree. I would agree.
    I guess in terms of waterways, one of the interesting 
experiences we have had here, I talked about partnerships 
earlier, a group called Living Lands and Waters works our own 
Mississippi River system. Actually, six barges collecting 
materials, anything from cars, tires, drums, and plastic.
    We have had the opportunity to be able to really create a 
circular economy with those kinds of activities, actually bring 
material out of the Mississippi. We had an example, last year 
sorted 9,000 pounds of PET hand-sorted by our own bottler 
there, and it was turned into bottles for a product 30 days 
later. That is a circular economy, but we had to force it.
    So, ultimately, I think it is how do we really have a 
vertically integrated waste management system that really 
allows it to pull through where there is economic viability to 
that activity. If you have to prop it up because it doesn't 
have economic viability, it is going to collapse sooner or 
later, or you are always going to be feeding it funding. So, to 
get the 2.0 system it really requires some thinking and 
thoughtful examination of where we want to go.
    Senator Whitehouse. Dr. Law.
    Ms. Law. Thank you. I do agree with all of your priorities, 
especially the impacts on human health, and I think we need to 
expand that conversation more broadly into impacts of plastics 
and freshwater and soils and agriculture, and things like that.
    Other opportunities, though, that I would like to raise are 
the idea that we can try to make less waste; and this is 
falling on the previous question as well, starting to think 
about a cultural shift away from disposable, away from I use 
it, I put it in the garbage can, and it goes somewhere that is 
no longer my problem. So, encouraging reuse programs.
    One really simple intervention we can all do is put in 
refillable water stations into our public spaces to encourage 
people to carry a reusable bottle, as opposed to using 
something a single time. So I would just like to point out not 
just information campaigns, sort of your traditional education 
campaigns, but thinking about targeted interventions in spaces 
that are locally defined about quite simple interventions that 
will cause us to just simply make less trash that we then have 
to deal with.
    Senator Whitehouse. Mr. Chairman, shall I tell a brief 
sailor story that Dr. Law's testimony called to my 
recollection?
    Senator Barrasso. Please.
    Senator Whitehouse. Newport, Rhode Island is probably the 
sailing capital of the world; we claim that, anyway. Delaware 
may have a disagreement, but I am sure we have Wyoming beat.
    [Laughter.]
    Senator Whitehouse. A lot of sailboat racing goes through 
Newport, including what is now called the Volvo Ocean Race, 
which is perhaps the most dangerous and demanding sporting 
event on the planet; and it is around the world, very fast 
race, very high-tech boats going very fast. Racing boats have, 
for generations, had to learn a man overboard drill.
    You don't go offshore racing without having drilled and 
drilled on the man overboard situation; who is the spotter, how 
quickly do you turn the boat. You know, the whole routine is 
just drilled until you can, as soon as somebody yells 
overboard, everybody knows exactly what they are supposed to 
do.
    For the first time these racing boats have to have a new 
and different drill, and that is a keel clearing drill. They 
sail through the South Atlantic on their course and they sail 
near the place that is farthest from land anywhere on the 
surface of the earth; and even out there they are still doing 
these keel clearing drills. When the boats came into Newport 
from Brazil on their leg that ended with us, you could see the 
boats in Newport Harbor as they came in within sight of each 
other.
    They had sailed all the way from Brazil and these races are 
still so close that they end up within minutes of each other, 
within sight of each other as they finish, so you really, 
really need to make sure that your vessel is operating at peak 
performance. And they have enough computers to know when it is 
off performance, so they then have to deploy--they know what is 
wrong, the keep clearing drill; and somebody has to go over the 
side real quick, with goggles and a knife and whatever else 
they need, to get the junk, the plastic junk, usually, that the 
keel has swept like a single comb tooth out of the ocean and 
get their boat operating back at speed again.
    So, it is an interesting physical comparison to the 
longstanding, ancient, well established man overboard drill. It 
is only now, only in the last few years that ocean racers now 
have to come up with a whole new drill that they have to 
practice, keel clearing, even in the farthest corners of the 
South Atlantic.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Carper.
    Senator Carper. Mr. Karas, I don't know a whole lot about 
Coca-Cola's World Without Waste campaign, but I am told that 
the goals are ambitious. I am told that it will really make a 
difference to improving international recycling practices and 
reduce waste in our oceans, and that is encouraging. What are 
the biggest challenges that your company faces in implementing 
these goals domestically and what can Congress do to support 
your efforts in this Country?
    Mr. Karas. I think domestically the biggest challenge that 
we are trying to work through now, and I mentioned this in some 
of my earlier comments, at times I am dealing with sort of the 
waste infrastructure 1.0. I may have five different entities, 
public and/or private. One might be hauling, one might be 
operating the material recovery facility or the MRF. My end 
market might be somewhere off in the distance, and it is very 
disconnected.
    So, for us to be able to deliver 50 percent recycled 
content, I have to do it in a way that I have an adequate 
supply, adequate a good quality material, so I think the 
challenge is I am looking to see what the next 2.0 waste 
management system will be in the long-term.
    We have a combination of different efforts that we are 
doing to really work on vertically integrating that system, so, 
from a business perspective, if you are one and the same 
entity, I just toured a MRF, material recovery facility, 
earlier this week. They are integrated with making cardboard 
boxes, so they pull the cardboard out of the materials coming 
into this site, drive across the parking lot and they are 
making brand new cardboard boxes. When they do it that way, it 
works; it has value. I think that is sort of the area that we 
are seeing as the biggest challenge, is how do we really get 
that system to work.
    I think the second piece is we have probably, it is 
something I mentioned earlier, about the culture right here in 
this Country. I really believe that people don't understand the 
concept of the circular economy and we have very much a culture 
that is throwaway, so we are working on that space as well.
    Senator Carper. Any question you have not been asked that 
you would like to be asked?
    Mr. Baillie. I just wanted an opportunity to respond to the 
systemic question that you asked.
    Senator Carper. Oh, good.
    Mr. Baillie. I think there is nothing inherently bad about 
plastics, but in 1950 we were producing 2.3 million tons.
    Senator Carper. How much?
    Mr. Baillie. Two point three.
    Senator Carper. In what year?
    Mr. Baillie. In 1950. And now it is 500 million tons. So 
that is a massive increase. And we haven't moved to that closed 
loop economy, so we are producing these plastics without a full 
cycle of what will happen to them going forward, and there is 
just too much of it.
    But when you talk about the source, it is really working 
with the industries and saying how can we produce plastics that 
can definitely be recycled. When you have multiple plastics, 
say, in a toothbrush--there are three types of plastics, 
often--it makes it much more difficult to recycle. So how can 
we create conditions where it is easy to recycle things? And 
things like coffee cups, we have plastics being mixed and 
layered with wood and with aluminum. Again, it makes it 
extremely difficult to recycle that. How do we simplify that 
process?
    If we can do that and then we develop more standardized 
approach across the United States in terms of recycling, we can 
bring recycling to scale. The things you do in D.C. are 
different than you might do in States across America. We have 
to standardize this process so we can work at scale and we can 
innovate at scale.
    Then we talked about innovation. I mentioned the Impact 
Investment Fund we are promoting, but there are much larger 
funds out there, and I think there is a real opportunity for 
Government to work with the private sector to develop these 
large funds to actually drive innovation.
    Then, finally, incentives. We talked about the five cents 
on a plastic bag, which makes a world of difference, or the 
five cents to collect a bottle, which makes a world of 
difference. We have to explore and deliver on these standards.
    Then, I think that the United States can then play a much 
stronger global role. We are now only recycling 9 percent of 
our plastics. Some of these other countries that we are talking 
about that are putting more waste into the world are actually 
recycling more than we are. So, we should set a target of going 
from at least our 9 percent to what Europe is doing, which is 
around 30 percent, to ensure that we can then move into a 
leadership position in this space and lead with our innovation 
as well.
    Senator Carper. Congressman Dooley.
    Mr. Dooley. If I may respond. I would say that the fact 
that we have seen an increased use of plastics, that has been a 
significant contributor to enhancing global sustainability. A 
few years ago, UNEP, the United States Environmental Program, 
at the request of one of their members, did a study in terms of 
trying to identify the environmental costs of plastics. They 
hired a firm called True Cost that went out and did this study, 
and they came back and they said, OK, it is about $90 billion a 
year.
    From a policymaker's perspective, I said, what would you 
respond to a study that said that? You could be led down to 
say, well, then we ought to eliminate the use of plastics. What 
we did at ACC, we said, you know, you need to do a more 
comprehensive assessment.
    We went back to True Cost, we said, not only should you do 
an assessment of the environmental cost of plastics, but what 
would be the environmental costs of the alternatives. They did 
that and they came back to us and they said, it is a good news, 
bad news story. It is not 90 billion, it is 139 billion for the 
environmental cost of plastics. But the good news is, from a 
plastic manufacturer, is that the environmental cost of using 
alternatives to plastics was four times as large.
    So I think we have to be careful here when we are trying to 
develop policies that are going to ultimately enhance global 
sustainability, that we should do so in a manner that is really 
based on doing comprehensive assessments of the life cycle 
impact of the various materials. When you take that approach 
based on the more comprehensive study, it sends a signal to us 
as manufacturers that we have to do a better job of ensuring 
that the plastics that are increasingly being used are more 
easily recycled, that their energy and their chemicals can be 
more easily recoverable so that we can minimize their impact in 
terms of the environment, but still capitalizing on the 
positive environmental benefits from their use.
    Senator Carper. Fair enough. Thank you. Thank you, Cal.
    Could I have one more question, Mr. Chairman?
    I am trying to remember the name of the new program they 
have over in China. I think it is called the Green Fence 
policy. It is a ban on importing plastic waste. As you know, 
China was our market for these materials and for a long time 
they previously accepted about 30 percent maybe a third of our 
plastic waste. In our Country, local municipalities are having 
more trouble now breaking even when collecting and recycling 
this waste.
    Anybody have an idea what are some of the best ways for the 
U.S. to address this new challenge? Any thoughts?
    Mr. Dooley. Again, I think that there are some real 
opportunities to use this as an inflection point where we could 
see opportunities to increase the value of this accumulating 
plastic waste. In my opening remarks, we identified some 
policies that we currently have in place in the United States 
that are impeding the flow of investment capital in developing 
the innovations that can transform that mixed waste or plastic 
waste stream accumulated into energy as well as into going 
through a pyrolysis where you can turn it into feedstocks.
    Now, if you want to try to get a permit for a pyrolysis 
unit to do waste plastic, sometimes it is subject to being 
permitted as a hazardous waste facility versus what could be a 
recycling center. If you make that small change, you could, 
again, create a greater incentive for the flow of that 
investment capital to develop those new innovations.
    The same thing, if you could develop diesel or a syn fuel 
from a plastic waste stream, it doesn't qualify for the 
alternative fuels treatment or renewable fuels. Making simple 
changes like that are going to encourage a lot of investment 
from a lot of startup companies, as well as a lot of large 
companies, to make investments that can add value and capture 
the energy and the value in that plastic waste stream.
    Senator Carper. Were you this smart when you were a 
Congressman?
    [Laughter.]
    Mr. Dooley. I was smart enough to leave.
    [Laughter.]
    Senator Carper. I will say in closing, for myself, this is 
a really important issue and I again want to thank Senator 
Whitehouse and Senator Sullivan for their great leadership on 
this, and our Chairman for holding this hearing and for Senator 
Inhofe's strong interest in this issue as well. This is one I 
care about enormously. I am sorry there is so much other stuff 
going on that hasn't allowed me to be here.
    One of my favorite witnesses, the guy who is the controller 
general of the Country, the head of GAO, General Accountability 
Office. His name is Gene Dodaro. I don't know if you have ever 
met him, but he comes and testified fairly regularly on 
different committees. Sometimes he will be sitting right where 
you are, Mr. Karas, and he speaks opening statement, no notes. 
Answers every question, no notes. Finally, I noticed 1 day that 
when he would speak there was a woman sitting right behind him 
and her lips were moving when he spoke.
    I have been watching you and your responses, and there is a 
lady in a red dress right behind you, and I noticed that her 
lips were moving when you speak. She looks very familiar and I 
just want to say to Missy, welcome to our hearing; it is great 
to see you. You have another career ahead of you if you can 
take this show on the road.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Carper.
    Thank you all. This was very productive.
    Senator Whitehouse, thank you for your leadership. Thank 
Senator Sullivan as well.
    If there are no more questions today from the panel, 
members might submit written questions for up to 2 weeks, so 
the record will stay open for that period of time.
    But I really do want to thank all of you for being here, as 
well as what you are doing on this vital, vital issue. Thank 
you to National Geographic for your leadership and for putting 
visually something that I think really caught the attention of 
the Country and the world.
    With that, this hearing is adjourned.
    [Whereupon, at 11:52 a.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                                  <all>
</pre></body></html>
